<html>
<title> - BELARUS DEMOCRACY ACT OF 2011; AND A RESOLUTION SUPPORTING THE DEMOCRATIC ASPIRATIONS OF THE IVORIAN PEOPLE AND CALLING ON THE UNITED STATES TO APPLY INTENSE DIPLOMATIC PRESSURE AND PROVIDE HUMANITARIAN SUPPORT IN RESPONSE TO THE POLITICAL CRISIS IN COTE D'IVOIRE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



    BELARUS DEMOCRACY ACT OF 2011; AND A RESOLUTION SUPPORTING THE 
DEMOCRATIC ASPIRATIONS OF THE IVORIAN PEOPLE AND CALLING ON THE UNITED 
 STATES TO APPLY INTENSE DIPLOMATIC PRESSURE AND PROVIDE HUMANITARIAN 
      SUPPORT IN RESPONSE TO THE POLITICAL CRISIS IN COTE D'IVOIRE

=======================================================================

                                 MARKUP

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 515 and H. Res. 85

                               __________

                             APRIL 13, 2011

                               __________

                           Serial No. 112-53

                               __________

        Printed for the use of the Committee on Foreign Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
65-973PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York









                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 515, To reauthorize the Belarus Democracy Act of 2004.......     2
  Amendment to H.R. 515 offered by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New 
    Jersey, and chairman, Subcommittee on Africa, Global Health, 
    and Human Rights.............................................    16
H. Res. 85, A resolution supporting the democratic aspirations of 
  the Ivoirian people and calling on the United States to apply 
  intense diplomatic pressure and provide humanitarian support in 
  response to the political crisis in Cote d'Ivoire..............    24
  Amendment in the nature of a substitute to H. Res. 85 offered 
    by the Honorable Donald M. Payne, a Representative in 
    Congress from the State of New Jersey........................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Christopher H. Smith:
  Prepared statement on H.R. 515.................................    21
  Prepared statement on H. Res. 85...............................    40

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
 
    BELARUS DEMOCRACY ACT OF 2011; AND A RESOLUTION SUPPORTING THE 
DEMOCRATIC ASPIRATIONS OF THE IVORIAN PEOPLE AND CALLING ON THE UNITED 
 STATES TO APPLY INTENSE DIPLOMATIC PRESSURE AND PROVIDE HUMANITARIAN 
      SUPPORT IN RESPONSE TO THE POLITICAL CRISIS IN COTE D'IVOIRE

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:28 a.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will now come to order for a 
markup on two pieces of legislation. Pursuant to notice, for 
purposes of markup, I call up the bill H.R. 515, the Belarus 
Democracy Act of 2011.
    [H.R. 515 follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. And then following that, we will then be calling 
up H. Res. 85, authored by Mr. Payne, which concerns all 
relevant issues with Cote d'Ivoire.
    Without objection, H.R. 515, the Belarus Democracy Act, 
will be considered as read and open for amendment at any point. 
I have a bipartisan amendment that members have in front of 
them in their packets, which was provided previously to your 
offices as well, and it is available online as well. The clerk 
will report the amendment.
    Mr. Kearney. Amendment to H.R. 515, offered by Mr. Smith of 
New Jersey. Page 1, line 5, strike ``Reauthorization'' and 
insert ``and Human Rights.'' Page 3, line 14, insert at the end 
before the period, the following: ``, sometimes by--''
    [The amendment offered by Mr. Smith of New Jersey follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Without objection, the amendment will be 
considered as read. And I recognize myself to speak. I will not 
read my entire statement.
    We did have an extensive hearing on Belarus just the other 
day, at which we focused on the despicable actions of Alekandr 
Lukashenka, who is the dictator, especially as relates to the 
fraudulent December 19th election in Belarus, and the ongoing 
crackdown on democracy activists and independent journalists by 
the Lukashenka dictatorship.
    Immediately after the election, the government responded to 
peaceful protests against electoral fraud with savage mass 
beatings and large-scale detentions. Over 700 people were hurt. 
Some of those jailed have been abused, and even tortured. A 
number of them have already received harsh sentences of up to 4 
years. Nearly 30 remain in detention.
    Their families, lawyers, journalists, and democratic 
activists continue to be harassed and intimidated. The 
crackdown follows the pattern of repression that has 
characterized Lukashenka's nearly 17-year rule. Through a 
series of rigged elections, large-scale intimidation, and 
suppression of independent media and civil society, the 
dictator has long since consolidated his control over virtually 
all national institutions.
    Lukashenka's dictatorship has the worst democracy and human 
rights record of any government in Europe. Several years ago, 
legislation I authored known as the Belarus Democracy Act of 
2004 and the Belarus Democracy Reauthorization Act of 2006 
passed the House and Senate, and was signed into law, with 
overwhelming bipartisan support. H.R. 515 takes as a starting 
point the approach of the earlier legislation.
    And without objection, I would ask that my full statement 
be included in the record at this point.
    [The prepared statement of Mr. Smith of New Jersey 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Smith. I would like to recognize Mr. Payne.
    Mr. Payne. Yes, thank you. I have an amendment in the 
nature of a substitute, an amendment on Cote d'Ivoire, and if 
the clerk----
    Mr. Smith. We will go right to that in 1 second. Anything 
on Belarus?
    Mr. Payne. Oh, excuse me.
    Mr. Smith. Do any other members wish to speak on the 
Belarus Democracy Act?
    Mr. Payne. Let me just commend you for your efforts, your 
diligence, how you have followed this through the decades. And 
I am very pleased that this issue has come to the fore, and I 
certainly support wholeheartedly this resolution.
    Mr. Smith. Thank you very much, Mr. Payne. Hearing no 
further requests to speak, the question is on agreeing to the 
amendment. All those in favor say aye.
    [Ayes.]
    Mr. Smith. All those opposed say no. In the opinion of the 
chair, the ayes have it and the amendment is agreed to. Hearing 
no further amendments, I move that the bill as amended be 
reported favorably to the full Committee on Foreign Affairs. 
All those in favor say aye.
    [Ayes.]
    Mr. Smith. All those opposed say no. The ayes have it, and 
the motion is agreed to. Without objection, the bill as amended 
will be reported favorably to the full committee in the form of 
a single amendment in the nature of a substitute. Without 
objection, the staff is directed to make any technical and 
conforming amendments.
    I now call up the measure H. Res. 85, a resolution 
supporting the democratic aspirations of the Ivorian people, 
and calling on the United States to apply intense diplomatic 
pressure and provide humanitarian support in response to the 
political crisis in Cote d'Ivoire.
    [H. Res. 85 follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Without objection, the bill will be considered 
as read and open for amendment at any point. And I recognize my 
good friend, the ranking member, to offer his amendment in the 
nature of a substitute, that members again have in front of 
them, that was provided previously to your offices, and made 
available online. Mr. Payne?
    Mr. Payne. Thank you very much, Mr. Chairman. Since we just 
had a very thorough hearing, I will be very brief. I just 
appreciate the amendment being brought up. We know that this is 
something that is very important, and we look for support from 
all of the members here.
    I would also like to, although they just left, acknowledge 
the fact that the Ambassador from Cote d'Ivoire was with us, 
Mr. Diabate, who just left. And also a group from the Ivorian 
Watch, headed by Mrs. Bernadette Paolo, and her group was still 
here.
    So I have an amendment at the desk.
    Mr. Smith. Thank you, Mr. Payne. The clerk will report the 
amendment.
    Mr. Kearney. Amendment in the nature of a substitute to H. 
Res. 85, offered by Mr. Payne of New Jersey. Strike the 
preamble, and insert the following: Whereas, on March 4, 2007, 
key political leaders of Cote d'Ivoire signed--
    [The amendment offered by Mr. Payne follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Smith. Without objection, the amdendment is considered 
as read, and I would ask unanimous consent to include my full 
statement in the record. Without objection, so ordered.
    [The prepared statement of Mr. Smith of New Jersey 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Smith. And I do yield to Mr. Payne.
    Mr. Payne. Thank you very much. As I was saying, we have 
just had a hearing. I think that everything is pretty clear. I 
once again appreciate the amendment being brought up, and urge 
its support.
    Mr. Smith. Thank you very much, Mr. Payne, and I commend 
you on your resolution. It is an outstanding resolution, and we 
will push very hard to see that it comes to the floor.
    Would any other members like to be heard? Hearing no 
further requests to speak, the question is on agreeing to the 
amendment in the nature of a substitute. All those in favor, 
say aye.
    [Ayes.]
    Mr. Smith. All those opposed say no. In the opinion of the 
chair, the ayes have it. The amendment is agreed to. Hearing no 
further amendments, I move that the resolution as amended be 
reported favorably to the full Committee on Foreign Affairs. 
All those in favor say aye.
    [Ayes.]
    Mr. Smith. All those opposed, no. The ayes have it. The 
motion is agreed to, and the resolution as amended is reported 
favorably to the full committee. Without objection, the staff 
is directed to make any technical and conforming amendments. 
That concludes our business, and without objection the 
subcommittee markup stands adjourned.
    [Whereupon, at 10:35 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
